   May 03, 2005




Acquisition
DoD Purchase Card Convenience
Checks
(D-2005-055)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
DFAS                 Defense Finance and Accounting Service
FMR                  Financial Management Regulation
GAO                  Government Accountability Office
GSA                  General Services Administration
IG                   Inspector General
IRS                  Internal Revenue Service
PMO                  DoD Joint Purchase Card Program Management Office
                               INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 222024704




                                                                              May 03,2005
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                  TECHNOLOGY, AND LOGISTICS
                DIRECTOR, DOD JOINT PURCHASE CARD PROGRAM
                  MANAGEMENT OFFICE
                PRESIDENT, UNIFORMED SERVICES UNIVERSITY OF
                   HEALTH SCIENCES
                DIRECTOR, DEFENSE COMMISSARY AGENCY
SUBJECT: Report on DoD Purchase Card Convenience Checks (Report No. D-2005-055)

     We are providing this report for review and comment. We considered management
comments on a draft of this report when preparing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly. The
Director, Defense Procurement and Acquisition Policy comments were partially responsive.
We request the Director, Defense Procurement and Acquisition Policy provide comments
on Recommendation A.1 .a. by July 1,2005.
        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudCM@dodig.osd.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed 1
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed to
Ms. Deborah L. Carros at (703) 604-9217 @SN 664-9217) or Ms. Beth K. Schaefer at
(703) 604-9232 (DSN 664-9232). For the report distribution, see Appendix D. The team
members are listed inside the back cover.


                                                                            .
                                 By direction of the Deputy Inspector General for Auditing:


                                  l2dLyGd*
                                             Richard B. Jolli e
                                              Acting Director
                                         for Contract Management
         Office of the Inspector General of the Department of Defense
Report No. D-2005-055                                                      May 03, 2005
   (Project No. D2003-D000CK-0126)

                   DoD Purchase Card Convenience Checks

                                 Executive Summary

Who Should Read This Report and Why? Policy makers, senior managers, purchase
card program managers, approving officials, cardholders, and convenience check writers
should read this report to help identify potential problem areas with convenience checks
in their purchase card programs. This report identifies weaknesses in the controls over
convenience checks resulting in the improper use of convenience checks. After reading
this report, managers will be able to better assess the area of convenience checks within
their programs and implement the appropriate recommendations to strengthen their
programs.

Background. This audit report is one in a series of reports that documents satisfaction of
the requirements in section 1007 of the FY 2003 National Defense Authorization Act that
the Department of Defense Inspector General perform periodic audits of purchase card
usage. The Government-wide commercial purchase card program was created to provide
an efficient means for Government agencies to purchase goods and services directly from
vendors. In FY 2003, $7.1 billion in goods and services was purchased using the
purchase card program. During the first 6 months of FY 2003, about $34 million in
goods and services was purchased using convenience checks.

Results. Convenience check accounts under the purchase card program were not
properly established or monitored. Specifically, appointment letters either did not exist
or were not sufficient to identify the check writer’s responsibilities or accountability.
Check writers made inappropriate payments with convenience checks. These
inappropriate payments included checks being written over the authorized $2,500 limit,
payments split over several checks to avoid going over the authorized limit, recurring
payments to vendors, payments to vendors on contract, and the use of the convenience
check when the vendor accepted charge cards. As a result, inappropriate use of
convenience checks cost the Department about $40,381 in check fees; checks were
written as an exchange for cash; and checks were written over the $2,500 limit
established by the DoD Financial Management Regulation. Additionally, individuals and
organizations paid by convenience check may not have considered the items as income
since they did not receive Internal Revenue Service Forms 1099-Miscellaneous Income.

Management Comments and Audit Response. The Interim President, Uniformed
Services University of the Health Sciences, and the Acting Director, Defense
Commissary Agency commented on the finding. The Interim President concurred with
the findings, but requested revision to the finding results. We agreed with the Interim
President’s comments and revised the finding results. The Acting Director, Defense
Commissary Agency did not concur with the finding and stated the Defense Commissary
Agency saved the Government money by using the convenience check as a payment
vehicle against contracts. We disagreed that the audit report claimed potential monetary
benefits. The audit report states the Defense Commissary Agency cost the Government
$3,251 in check fees by using the convenience check instead of a purchase card.
The Director, Defense Procurement and Acquisition Policy; the Interim President,
Uniformed Services University of the Health Sciences; and the Acting Director, Defense
Commissary Agency, generally concurred with the recommendations. However, the
Director, Defense Procurement and Acquisition Policy did not concur with amending the
purchase card task orders with the banks to state that convenience checks not written in
accordance with the Department of Defense Financial Management Regulations will not
be honored. The Director, Defense Procurement and Acquisition Policy is taking
appropriate actions in response to this recommendation by recognizing inappropriate use
of checks written over $2,500 and issuing a policy memorandum to correct the
inappropriate use. Therefore, the comments were responsive and no additional comments
are required. Additionally, the Director, Defense Procurement and Acquisition Policy
did not comment on reissuing guidance requiring appointment letters with an
acknowledgement that the individual understands the responsibilities and liabilities. We
request that the Director, Defense Procurement and Acquisition Policy provide comments
to this recommendation by July 1, 2005. (See the Finding section of the report for a
discussion of management comments and the Management Comments section for the
complete text of comments.)




                                           ii
Table of Contents

Executive Summary                                                             i

Background                                                                   1

Objectives                                                                   2

Finding
     Convenience Checks                                                       3

Appendixes
     A. Scope and Methodology                                                15
          Management Control Program Review                                  16
          Prior Coverage                                                     17
     B. Scope of Review by Location                                          19
     C. List of Activities Visited and Problems Found                        21
     D. Report Distribution                                                  22

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   25
     Uniformed Services University of the Health Sciences                    29
     Defense Commissary Agency                                               31
Background
    Section 1007, “Improvements in Purchase Card Management,” of the National
    Defense Authorization Act for Fiscal Year 2003 (Public Law 107-314,
    December 2, 2002), states:

           That the Inspector General of the Department of Defense . . . perform periodic
           audits to identify–

           (A) potentially fraudulent, improper, and abusive uses of purchase cards;

           (B) any patterns of improper cardholder transactions, such as purchases of
           prohibited items; and

           (C) categories of purchases that should be made by means other than purchase
           cards in order to better aggregate purchases and obtain lower prices.

    Federal Purchase Card Program. The first Government-wide purchase card
    contract was awarded by the General Services Administration (GSA) in 1989.
    DoD entered the program at that time. On October 13, 1994, the President issued
    Executive Order 12931 mandating increased use of purchase cards for micro-
    purchases (purchases under $2,500). The purchase card can be used to pay for
    goods and services up to a predetermined limit and for payments against
    contracts. GSA reports that the Government saves approximately $1.3 billion
    annually in administrative costs by using purchase cards.

    DoD Joint Purchase Card Program Management Office. The Deputy
    Secretary of Defense established the DoD Joint Purchase Card Program
    Management Office (PMO) in March 1998. The PMO reports directly to the
    Director, Defense Procurement and Acquisition Policy within the office of the
    Under Secretary of Defense for Acquisition, Technology, and Logistics. Finance
    and accounting issues are coordinated with the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer.

    How the DoD Program Works. DoD organizations are responsible for
    distributing cards, training employees, and day-to-day management of the
    purchase card program. Each participating organization designates an office to
    manage the program and ensure training is provided, to maintain a current list of
    cardholders and approving officials, and to ensure annual oversight is performed.

    DoD appointed agency program coordinators with the responsibility for program
    management at the installation, major command, and Component levels. Agency
    program coordinators issue purchase cards, establish limits on spending, and
    monitor use of a purchase card account. Also, DoD employees are assigned as
    “approving officials” to authorize and approve purchases for payment. Once a
    cardholder makes an authorized purchase, the cardholder and the approving
    official reconcile the purchased goods and services with the bank statement prior
    to the approving official requesting payment by the Defense Finance and
    Accounting Service (DFAS).



                                              1
    Convenience Checks. The DoD Financial Management Regulation (FMR) states
    that the desired method for making all payments within the United States is by
    electronic transfer of funds. When electronic transfers of funds are not practical,
    the FMR permits the use of purchase cards. If a business refuses to accept the
    purchase card or if use of the card is impractical, DoD may use a convenience
    check. Convenience checks are third party drafts provided through the GSA
    contract as part of the purchase card program. Convenience checks may be issued
    to acquire and pay for supplies, services, or construction when vendors do not
    accept the Government purchase card. The checks offer DoD activities
    mechanisms to replace cash for official expenses when purchase cards and other
    alternatives have been determined unusable. To establish a checking account, the
    agency program coordinator creates a purchase card account with the convenience
    check option. Checks are then ordered with the check writer’s name, billing
    address, and the statement “Not valid over $2,500” printed on the checks. Each
    time a check is processed by the bank, the activity is charged 1.7 percent of the
    face value of the check as a processing fee.


Objectives
    Our overall audit objective was to evaluate whether controls over and use of
    purchase card convenience checks were effective and appropriate. We also
    reviewed the management control program as it related to the overall objective.
    See Appendix A for a discussion of the scope and methodology, review of the
    management control program, and prior audit coverage. See Appendix B for the
    specific scope of review at each location, and Appendix C for a list of problems
    found at each location.




                                         2
           Convenience Checks
           Convenience check accounts under the purchase card program were not
           properly established or monitored. Specifically:

               •   Appointment letters either did not exist or were not sufficient to
                   hold check writers accountable.

               •   Check writers made inappropriate payments with convenience
                   checks. These inappropriate payments included checks exceeding
                   the $2,500 limit, splitting payments to avoid exceeding authorized
                   limits, recurring payments to vendors, payments to vendors on
                   contract, and paying vendors who accepted charge cards.
                   Additionally, other inappropriate payments were made for printing
                   services and entertainment.

               •   Information was not reported on Internal Revenue Service Form
                   (IRS) 1099-Miscellaneous Income.

           These conditions occurred because:

               •   Check writer appointment letters did not specify check writer
                   duties, establish dollar limitations for checks, or contain an
                   acknowledgement of those duties and responsibilities.

               •   Checks were written when different payment methods were
                   available. Check writers had single purchase limits below the
                   $2,500 micro-purchase limit. Additionally, check writers were not
                   properly monitored to ensure that checks were used properly and
                   did not exceed established limits.

               •   Activities either did not capture IRS Form 1099-Miscellaneous
                   Income data or did not know how to report the data.

           As a result, the inappropriate use of convenience checks cost the
           Department about $40,381 in check fees, checks were written as an
           exchange for cash, and checks were written over the $2,500 limit
           established by the DoD FMR. Additionally, individuals and organizations
           paid by convenience check may not have considered the payments as
           income since they did not receive IRS Forms 1099-Miscellaneous Income.

Appointment Letters
    Appointment letters either did not exist or were not sufficient to hold check
    writers accountable. Only 10 of the 21 check writers interviewed were able to
    provide copies of their convenience check appointment letters. The appointment
    letters specified check writer duties, established dollar limitations for checks, and
    contained an acknowledgement of those duties and responsibilities. However,
    only 7 of the 10 individuals who were appointed in writing as check writers


                                          3
    acknowledged the appointment. The other 11 check writers either did not have
    appointment letters or had insufficient appointment letters. Without appropriate
    appointment letters, Comptroller General Decision B-280764, issued
    May 4, 2000, states that individuals cannot be held pecuniary liable for
    inappropriate payments. The PMO should reissue guidance requiring adequate
    appointment letters with an acknowledgement that the individual understands the
    responsibilities and liabilities for inappropriate use of the convenience checks.


Inappropriate Payments
    Check writers inappropriately used convenience checks to make payments. These
    inappropriate uses included checks being written over the authorized $2,500 limit;
    payments split over several checks to avoid going over the authorized limit;
    recurring payments to vendors; payments to vendors on contract; and the use of
    convenience checks when the vendor accepted charge cards. Additionally, other
    inappropriate payments were made for printing services and entertainment. See
    Appendix C for the list of activities visited and the problems found at each site.

    Checks Over $2,500. There were 58 convenience checks totaling about
    $211,200 written from October 1, 2002, through May 29, 2003, for amounts
    greater than the authorized $2,500 limit. Using data mining techniques, we
    identified 58 convenience checks written in excess of $2,500 by DoD
    organizations, as shown below.

                                Convenience Checks
                        October 1, 2002, through May 29, 2003

       Service            Total Number         Number of          Dollar Value of
                            of Checks         Checks Over          Checks Over
                             Written            $2,500                $2,500

     Army                         34,246                18              $23,979

     Navy                          7,895                 7                51,405

     Air Force                    17,964                30              125,322

     DoD Agencies                  4,408                 3                10,493

            Total                 64,513                58             $211,199



    Although the percentage of checks written for amounts greater than $2,500 was
    not significant when compared with the total number of checks written, the DoD
    FMR prohibits writing checks for more than $2,500. We addressed this issue in
    DoD Inspector General (IG) Report No. D-2002-075, “Controls Over the DoD
    Purchase Card Program,” March 29, 2002. At that time we recommended that the
    PMO have the banks return the checks for insufficient funds instead of honoring


                                        4
them. The PMO nonconcurred and stated that the purchase card program makes
use of standard commercial convenience check platforms, processes, and business
rules. The PMO should renegotiate the task order and require the banks to return
checks unpaid if written over the allowed amount.

The PMO conducted reviews on convenience checks issued for amounts greater
than $2,500 and sent the results semiannually to each of the Services and other
Defense organizations. Also, the PMO required all organizations to conduct an
audit and to cancel checking accounts that violated the DoD FMR limitation of
$2,500 per check. The PMO reviewed convenience checks issued from
October 2002 through April 2003. The review identified 36 convenience checks
issued totaling $171,648 that exceeded the $2,500 limit. In addition, the PMO
review of checks issued from May 2003 through October 2003 identified 32
checks totaling $129,681 that exceeded the $2,500 limit. The PMO review of
checks written from November 2003 through April 2004, identified 36 checks
totaling $236,982 that exceeded the $2,500 limit.

Split Payments. Payments made to vendors were split over several checks in
order to avoid going over the $2,500 check limit, or the check writer’s individual
purchase limit. At the 9 activities visited, check writing personnel wrote 3,522
checks from October 1, 2002, through May 29, 2003. Of the 3,522 checks
reviewed, 457 checks were split payments to make payments over the $2,500
limit. We found split payments at four of the nine activities visited. For example,
at the Defense Commissary Agency, two convenience check writers each wrote a
check for $2,500 to make a $5,000 payment to a neurological doctor for
deposition services. The Defense Commissary Agency Support Services Branch
Chief stated the doctor did not accept the purchase card and directed two check
writers to write the checks in order to avoid exceeding the $2,500 check limit. At
the 8th Marine Corps Recruiting District, check writing personnel wrote two
checks for flight training totaling about $3,406.

At the Marine Recruiting Center-Lansing, an additional 34 checks were written to
pay for 16 transactions totaling about $21,786 because the check writer had a
limit less than the micro-purchase limit. For example, one check writer had a
$1,000 limit. In order to pay invoices over the authorized $1,000 limit, several
checks were written. One invoice for $1,707 was split into 3 checks to prevent
the check writer from exceeding the $1,000 limit.

At the Uniformed Services University of Health Sciences, four checks were
written to an individual on January 16, 2003, as an exchange for cash. The
individual was given check numbers 9148 through 9151, totaling $2,400. The
explanation given was that the individual cashed the checks to purchase supplies
needed for Bushmaster training. (Bushmaster training is a weeklong practical
field laboratory exercise that occurs during the last week of the Military
Contingency Medicine course.) Items for this event were purchased from home
improvement stores, discount stores, club stores, office supply stores, a pharmacy,
and the Post Exchange, most of which accepted charge cards. Not only is this a
violation of the DoD FMR, the items purchased included potentially personal
items such as over-the-counter medications, office supplies, phone cords,
kerosene, light bulbs, a video cassette recorder, blank video tapes, a mouse, a
printer, an easel, oil, trash bags, power cords, power strips, coffee, light bulbs,


                                     5
and other various household-type items totaling $1,801. The individual wrote a
check to the U.S. Treasury to repay the unused money. University Management
confirmed the individual returned the funds to the U.S. Treasury and the U.S.
Treasury disbursed the funds to the University’s account. The activity incurred
about $41 in check fees and spent $1,801 on potentially personal items by issuing
the checks as an exchange for cash. The President of the Uniformed Services
University of Health Sciences should initiate an investigation of the above
transactions and take appropriate actions against the check writer and the
individual receiving the checks.

Recurring and Contract Payments. Inappropriate recurring and contract
payments were made with the convenience check. Recurring payments were
made to vendors and individuals without contracts, as well as to vendors with
contracts.

        Recurring Payments. Recurring monthly payments were made to
vendors and individuals for supplies and services. We reviewed 3,522
transactions for 23 check writers at the 9 locations. We found that 1,006 of the
3,522 checks totaling $694,719 were written to vendors and individuals on a
recurring basis. For example, at the Air Force Band, 1 check writer wrote 43
checks over a 12-month period totaling about $31,000 to 1 vendor for the Band’s
tailoring needs. At the Marine Recruiting Center-Lansing, 1 check writer issued
22 checks totaling about $15,800 to a utility company.

Using data mining techniques, we mined convenience check data for the
Department for the period from October 1, 2002, through May 29, 2003, to
determine if recurring monthly payments were being made Department-wide. We
found recurring convenience check payments to utility companies, and to cities,
states, and county organizations. For example, we determined that 432 checks
valued at about $149,000 were written to cities, states, and county organizations.
Additionally, we determined that 497 checks totaling about $210,000 were
written to utility companies, of which 418 checks totaling about $149,000 were
for telephone service. We also identified 104 checks totaling about $37,800 that
were written to warehouse clubs that require memberships. The dollar value of
these checks ranged from $19.94 to $2,499.50. We identified 27 checks totaling
about $11,000 that were written to grocery stores. We also determined that 57
checks totaling about $15,000 were written to charitable organizations.

Purchases at some of these vendors could be potential misuse of the convenience
checks, and an inappropriate use of Government funds. The PMO should require
agency program coordinators to identify recurring payments during the annual
reviews, and take appropriate actions to prevent future use of convenience checks
to make recurring payments.

        Payments to Vendors on Contracts. Convenience checks were used to
make payments to vendors on contracts instead of using the purchase card as
indicated on the contract, or making payment by other means. We reviewed
transactions for 23 of the check writers at the 9 locations reviewed, and found that
252 of the checks were written as payments on contracts. All of the checks
written as payments on contracts were at the Defense Commissary Agency. Six
of the eight Defense Commissary Agency check writers wrote checks as


                                     6
           payments on contracts. The contracts indicated that payment was to be made via
           the purchase card or by DFAS. However, the check writers made payments
           totaling $191,206 with convenience checks instead of the payment methods
           specified in the contract. The Director, Defense Commissary Agency should
           ensure that convenience checks are issued in compliance with the DoD FMR, and
           that the payment method indicated in the contract is used.

           Use of Convenience Checks at Businesses That Accepted Charge Cards.
           Convenience checks were inappropriately used at businesses that accepted the
           purchase card. According to the DoD FMR, convenience checks can be used
           as an alternative to cash for paying official expenses of DoD organizations that
           previously used imprest funds.* Convenience checks should be used only after
           purchase cards are determined to be unusable.

           Using data mining techniques, we determined that from October 1, 2002, through
           May 29, 2003, 1,423 convenience checks totaling about $571,247 were written to
           businesses that accepted purchase cards. The businesses that accepted charge
           cards included companies such as Federal Express, the United Parcel Service, and
           the Washington Post. For example, 746 checks totaling $292,833 were written to
           Federal Express. An additional 126 checks totaling about $27,600 were written to
           the United Parcel Service.

           Use of convenience checks at businesses that accepted charge cards was
           identified during our site visits. For example, at the 8th Marine Corps Recruiting
           District, we found checks totaling $3,080 written to four vendors that accepted
           charge cards. At the Uniformed Services University of Health Sciences, we
           found checks written to 11 vendors that accepted the charge card. According to
           the Interim President, Uniformed Service University of the Health Sciences, the
           University has discontinued the practice of writing convenience checks to vendors
           that accept the Government charge card. Additionally, University contracting
           procedures have been altered to make maximum and appropriate use of the
           Government Purchase Card.

           The PMO should identify potentially inappropriately written convenience checks
           such as those written to individuals or to businesses that accept charge cards, or
           split into multiple checks potentially to avoid the $2,500 limit. The PMO should
           require agency program coordinators to research the transactions, and to take
           appropriate actions to correct improper uses of the checks. The PMO should also
           follow up with agency program coordinators to ensure appropriate corrective
           actions are performed. The PMO needs to periodically research checks written to
           these types of vendors to ensure that purchase cards were determined unusable.

           Other Inappropriate Check Usage. Other inappropriate use of checks occurred
           at the 8th Marine Corps Recruiting District. Checks were used to pay for printing
           services instead of using the Defense Automated Printing Service. Additionally,
           in FY 2002, check writers at the 8th Marine Corps Recruiting District wrote
           checks over $2,500 to Sentry Telecom for about $23,467 to purchase a phone
           system and to the San Antonio Spurs for $2,740 for advertising. However, the

*
    Imprest funds were authorized to make small purchases (not exceeding $500) of supplies or services on
    an “imprest basis.” An “imprest basis” means that the amount of the fund was to remain constant.



                                                      7
    Spurs organization invoice showed only a charge for game tickets, broken out by
    cost level, ranging in price from $22.50 to $49.50. Although the 8th Marine Corps
    Recruiting District was aware that unauthorized individuals received and used the
    tickets, records were not maintained to show dispensation of the tickets. The U.S.
    Marine Corps Headquarters Office of the General Counsel agreed that the
    purchase of tickets fell under the lines of entertainment and issued clarification
    policy. The policy clarification prohibited the purchase and acceptance of tickets
    with advertising in the U.S. Marine Corps Recruiting Command.


Form 1099 Data
    IRS Form 1099-Miscellaneous Income information was not reported. Check
    writers are required to obtain IRS Form 1099-Miscellaneous Income data from
    individuals and companies they write checks to, on behalf of the Government.
    Vendors and individuals who receive an aggregate $600 through convenience
    checks should receive an IRS Form 1099-Miscellaneous Income indicating the
    amount of payments received during the tax year. Check writers are supposed to
    capture the appropriate data and transmit the data to DFAS, which in turn reports
    the information to the IRS. Check writers at eight of the nine locations visited did
    not report IRS Form 1099-Miscellaneous Income data. We interviewed 16 of the
    23 check writers and discovered that 9 of the 16 check writers did not report the
    IRS Form 1099-Miscellaneous Income data. See Appendix C for the list of
    activities visited and problems found. Without accurate reporting, individuals and
    vendors may not have considered all of their income when filing their taxes.


Oversight of Convenience Checks
    Problems existed with the use of convenience checks because of a lack of proper
    oversight to ensure that convenience checks were properly established and used
    appropriately. Specifically:

       •   Check writer appointment letters either did not exist, or did not contain an
           acknowledgement of check writer duties and responsibilities.

       •   Checks were written when a different payment method should have been
           used.

       •   Some check writers had single purchase limits less than the micro-
           purchase limit of $2,500.

       •   Activities either did not capture IRS Form 1099 data or captured the data
           and did not know how to report the data.

Costs of Checks
    Checks written instead of using the appropriate payment method cost the
    Department an additional $40,381 in check fees. If this trend is allowed to


                                         8
     continue, over the next 5 years, the Department will spend about $202,205 on
     unnecessary check fees. Additionally, since the check writers did not report IRS
     Forms 1099–Miscellaneous Income data, it is undeterminable how much money
     in income taxes was lost since individuals and organizations paid by convenience
     checks may not have considered the items as income since no IRS Forms 1099–
     Miscellaneous Income would have been received.

Check Fees
     Checks written instead of using the appropriate payment method cost the
     Department an additional $40,381 in check fees. Specifically, convenience
     checks were issued inappropriately over the $2,500 single micro-purchase
     threshold; issued as split payments against invoices exceeding the $2,500 micro-
     purchase limit; used as payment vehicles for recurring services and against
     existing contracts; and written to vendors who accepted the government purchase
     card. Each convenience check written cost the Department a check fee of 1.7
     percent of the face value of the check.

     Checks Over the Limit. Convenience checks written over the limit of $2,500
     cost the Department $9,151 in check fees. The PMO identified 104 checks
     totaling $538,311 written during the period from October 2002 through April
     2004. Using this data and multiplying the face value of the checks ($538,311) by
     the 1.7 percent processing fee, we determined that this resulted in the Department
     paying $9,151 in check fees. Had the Department used another method of
     payment, it would not have had to pay $9,151 in check fees.

     Split Payments. Payments split into multiple checks to pay transactions that
     were over $2,500 cost the Department about $6,417 in check fees. At 5 of the 9
     locations visited, check writers issued 491 checks from October 1, 2002, through
     September 30, 2003, as split payments against transactions totaling $377,483 that
     exceeded the $2,500 single purchase limit, or other locally imposed limit. Thus,
     multiplying $377,483 (dollar value of split payments) by the 1.7 percent
     processing fee, the total equals about $6,417 in check fees.

     In addition, the four checks written for a total of $2,400 at the Uniformed
     Services University of Health Sciences as an exchange for cash cost the
     Department about $41 in check fees ($2,400 times the 1.7 percent fee) in addition
     to the $1,801 potentially spent on personal items. Thus split payments at the
     activities visited cost the Department about $6,458.

     Recurring and Contract Payments. Checks written on a recurring basis instead
     of issuing a contract and making payment through another method cost the
     department $11,810 in check fees. At 6 of the 9 locations visited, 1,006 checks
     totaling $694,719 were identified as recurring payments. Thus multiplying
     $694,719 by the 1.7 percent processing fee, the cost of recurring payments is
     about $11,810. Checks written as payments on contracts cost the Department
     about $3,251 in check fees. At the Defense Commissary Agency, 252 payments
     against contracts totaling $191,206 were identified. Multiplying the $191,206 by
     the 1.7 percent processing fee, the contract payments made by convenience
     checks cost $3,251 in check fees. The contracts paid with a convenience check
     either listed payment in the contract as the Government purchase card or DFAS.


                                         9
     Thus checks written on a recurring basis or as a payment against a contract cost
     the Government a total of $15,061 in unnecessary check fees.

     Businesses That Accepted Charge Cards. Checks written to businesses that
     accepted charge cards cost the Department $9,711 in check fees. Using data
     mining techniques, we determined that from October 1, 2002, through May 29,
     2003, check writers throughout the Department issued 1,423 checks totaling
     $571,247 to vendors that accepted purchase cards. This resulted in $9,711 spent
     in unnecessary check fees ($571,247 times 1.7 percent).

Other Costs
     At eight of the nine locations, we interviewed 16 check writers and found that 9
     of the 16 check writers did not report IRS Form 1099-Miscellaneous Income data.
     Individuals and organizations paid by convenience check may not have
     considered the items as income since they did not receive an IRS Form 1099-
     Miscellaneous Income. As a result, it is undeterminable how much money the
     Government lost in income taxes.


Management Actions Taken
     In response to discussions during the audit, the PMO issued guidance on
     September 21, 2004, regarding convenience checks. The guidance reiterated the
     DoD FMR limitations on the use of convenience checks and stated that the bank
     would no longer honor convenience checks written over $2,500. The guidance
     also stated that senior program offices would be closely monitoring convenience
     checks.


Conclusion
     While we believe that the actions taken by the PMO should eliminate checks over
     the $2,500 limit, we believe the PMO needs to continue to be proactive if the use
     of convenience checks under the Purchase Card Program is to be effectively
     managed. The PMO needs to continue to review purchase card convenience
     check data at least quarterly to identify potentially inappropriately written
     convenience checks such as those written to individuals, businesses that accept
     charge cards, or potentially split into multiple checks to avoid the $2,500 limit.
     The PMO should require agency program coordinators to research the
     transactions, and to take appropriate actions to correct improper uses of the
     checks. Additionally, the PMO should follow up with agency program
     coordinators to ensure appropriate corrective actions are performed.


Management Comments on the Finding and Audit Response
     The Uniformed Services University of the Health Sciences and the Defense
     Commissary Agency commented on the Finding results of the draft report. The


                                         10
complete text of those comments is in the Management Comments section of this
report. We provided detailed responses to those comments below.

Uniformed Services University of the Health Sciences Comments on the
Finding. The Interim President, Uniformed Services University of the Health
Sciences concurred with the finding regarding four checks written as an exchange
for cash. However, the Interim President provided documentation that the
individual returned the $599 in unspent funds to the U.S. Treasury and the U.S.
Treasury disbursed the funds to the University’s account. The Interim President
requested the DoD Office of Inspector General change the wording on top of
page 6 to reflect the credit. The Interim President also requested the DoD Office
of Inspector General change the wording on page 9 to delete the phrase, “…plus
$599 lost to the Treasury.” Additionally, the Interim President concurred with the
finding on Page 7 regarding checks written to vendors who accepted the purchase
card. The Interim President stated that the University has since discontinued the
practice and altered contracting procedures to maximize appropriate use of the
Government purchase card.

Audit Response. After reviewing the documentation provided by the University,
we agree the funds were credited to the University’s account. As a result, we
changed the wording on pages 6 and 9 as requested. The University has taken
appropriate action to discontinue the practice of using the convenience check as
payment to vendors who accept the Government purchase card, and we added a
sentence to page 7 to acknowledge the University initiative.

Defense Commissary Agency Comments on the Finding. The Acting Director,
Defense Commissary Agency nonconcurred with potential monetary benefits
stating that checks written against contracts cost the Department additional
monies in check fees. The Acting Director stated that the same contracts paid by
the Defense Finance and Accounting Service would have cost the Government
approximately $27 per payment, or $6,804. The Acting Director stated the use of
the convenience check saved the Government $3,553 in payment processing fees
from the Defense Finance and Accounting Service. The Acting Director stated
they used convenience checks because the merchants refused to accept the credit
card and refused to register in the Central Contractor Registration. The Acting
Director stated that the services were essential for the continued operation of the
commissary.

Audit Response. The audit report did not claim potential monetary benefits. The
Defense Commissary Agency used the convenience check for payments against
contracts that cost the Government an additional $3,251 in checks fees. The
Government incurs 1.7 percent of the convenience check amount each time a
check is written, and the additional convenience check fees would not have been
incurred if the Defense Commissary Agency used the purchase card or the
Defense Finance and Accounting Service.




                                    11
Recommendations, Management Comments, and Audit
  Response
    A. 1. We recommend the DoD Joint Purchase Card Program Management
    Office:

             a. Reissue guidance requiring appointment letters with an
    acknowledgement that the individual understands the responsibilities and
    liabilities.

    Management Comments. The Director, Defense Procurement and Acquisition
    Policy did not comment on this recommendation. We request the Director
    provide comments in response to the final report.

          b. Amend the purchase card task orders with the banks to state that
    convenience checks not written in accordance with the DoD Financial
    Management Regulation will not be honored.

    Management Comments. The Director nonconcurred with amending the bank
    purchase card task orders to state convenience checks will not be honored unless
    written in accordance with the DoD Financial Management Regulation. The
    Director stated the DoD Joint Purchase Card Program Management Office
    identified several operational issues that made enforcement of the proposed
    amendment difficult; the Director stated that they are currently working on
    identifying solutions. However, the Director stated that the DoD Joint Purchase
    Card Program Management Office issued a policy memorandum in September
    2004 stating the banks would not honor any convenience check written greater
    than $2,500. The Director added that since the issuance of the policy
    memorandum, the DoD Joint Purchase Card Program Management Office
    identified a decrease in the number of checks written greater than $2,500, and
    believes the policy memorandum is serving as a deterrent until another solution is
    identified.

    Audit Response. The comments are responsive and no additional comments are
    required.

           c. Reemphasize DoD guidance regarding the use of convenience
    checks.

    Management Comments. The Director concurred and stated the DoD Joint
    Purchase Card Program Management Office included a section on convenience
    checks in the DoD Purchase Card Guide issued August 4, 2004. The Director
    also stated the DoD Joint Purchase Card Program Management Office expanded
    and improved the convenience check module in the Defense Acquisition
    University online Continuous Learning Module entitled, “DoD Government
    Purchase Card Refresher Training.’

    Audit Response. The comments are responsive and no additional comments are
    required.




                                        12
       d. Require agency program coordinators to identify recurring
payments during annual reviews, and take appropriate actions to prevent
future recurring payments via convenience checks.

Management Comments. The Director concurred and stated the DoD Joint
Purchase Card Program Management Office developed shared reports to help
Agency program coordinators and managers identify inappropriate convenience
check transactions. The reports included, “Transactions Near $2,500 Micro-
Purchase Limit,” “Over Limit Convenience Check Transactions,” and “All
Convenience Check Transactions.”

Audit Response. The comments are responsive and no additional comments are
required.

       e. Identify potentially inappropriately written convenience checks
such as those written to individuals, to businesses that accept charge cards,
or potentially split into multiple checks to avoid the $2,500 limit. Require
agency program coordinators to research the transactions, and to take
appropriate actions to correct improper uses of the checks. Follow up with
agency program coordinators to ensure appropriate corrective actions are
performed.

Management Comments. The Director concurred and stated the DoD Joint
Purchase Card Program Management Office developed shared reports as stated
above and will ensure effective use by the agency program coordinator and
managers. The Director also stated that the DoD Joint Purchase Card Program
Management Office requires Agency program coordinators to conduct
evaluations of all the checks written in excess of $2,500 and initiate corrective
action.

Audit Response. The comments are responsive and no additional comments are
required.

A. 2. We recommend the President of the Uniformed Services University of
Health Sciences initiate an investigation of the exchange for cash transactions
and take appropriate actions against the check writer and the individual
receiving the checks.

Management Comments. The Interim President, Uniformed Services University
of the Health Sciences concurred and stated that a thorough investigation will be
conducted to confirm the facts, determine if any items purchased were not for the
direct benefit of the Government, and recommend changes and administrative or
disciplinary actions as necessary.

Audit Response. The comments are responsive and no additional comments are
required.

A. 3. We recommend the Director, Defense Commissary Agency:

      a. Ensure that convenience checks are issued in compliance with the
DoD Financial Management Regulation.


                                     13
Management Comments. The Acting Director, Defense Commissary Agency
concurred and stated all convenience checks issued by the Defense Commissary
Agency are in compliance with the DoD Financial Management Regulation.
After a review by the Defense Commissary Agency program coordinator in July
2003, the Acting Director stated the Defense Commissary Agency developed a
Concept of Operations for the Convenience Check Program. The Acting Director
stated the Concept of Operations addresses how the Defense Commissary Agency
will utilize the convenience check program from a broad concept, and specific
procedures, processes, and prohibitions. The Acting Director stated the Defense
Commissary Agency implemented the Concept of Operations fully by April 2004.
The Acting Director stated the Defense Commissary Agency prohibits check
writers from making payments in excess of $2,500, splitting payments, and using
checks as a payment method for contracts. The Acting Director stated the
Defense Commissary Agency gave the check writers a copy of the DoD Financial
Management Regulation, volume 5, chapter 2, and required them to read the
section related to Convenience Checks.

Audit Response. The comments are responsive and no additional comments are
required.

       b. Ensure that contracts are issued when necessary; specify the
payment method in the contracts as either DFAS or the purchase card; and
ensure that the payment method indicated in the contract is used.

Management Comments. The Acting Director concurred that contracts shall be
issued only when necessary, all contracts shall specify the method of payment,
and the Defense Commissary Agency shall use the method stated in the contract.
The Contracting Division Chief was advised to modify existing contracts to
change the payment office to DFAS to eliminate the use of checks for payment of
requirements exceeding $2,500 annually. The Acting Director stated this was
accomplished for most requirements by the end of April 2004. However, the
Acting Director stated that the Defense Commissary Agency has two remaining
contracts for service, one that expires July 31, 2005, and one that expires
September 30, 2005; the Defense Commissary Agency will have no other
contracts where the convenience check is used after the two contracts expire. The
Acting Director stated the use of a contract document requiring payment by check
has been terminated as a standard practice as of April 2004 in accordance with the
Defense Commissary Agency Concept of Operations.

Audit Response. The Defense Commissary Agency is taking the appropriate
actions to eliminate the use of the convenience check as a payment method
against contracts. Therefore, the comments provided are responsive and no
additional comments are required.




                                    14
Appendix A. Scope and Methodology
   We reviewed the use of convenience checks under the DoD Purchase Card
   Program. Using data mining techniques, we reviewed 64,513 convenience check
   transactions that occurred from October 1, 2002, through May 29, 2003, totaling
   about $33.9 million. We mined the data for checks written over the established
   limit of $2,500, recurring payments, and vendors known to accept charge cards.

   We focused on FY 2003 convenience check documentation available at the time
   of our visits associated with 23 check writers at the following DoD activities:

      •   U.S. Army Tank-Automotive and Armaments Command;

      •   U. S. Army Tank and Automotive Research, Development, and
          Engineering Center;

      •   Army Great Lakes Recruiting Battalion;

      •   the 8th Marine Corps Recruiting District;

      •    the Marine Recruiting Center-Lansing;

      •    the Marine Recruiting Center-San Antonio;

      •    the Air Force Band;

      •    the Defense Commissary Agency, and

      •   the Uniformed Services University of the Health Sciences.

   See Appendix B for the scope of review at each location. For the periods
   reviewed, check writers from the 9 activities issued 3,522 convenience checks,
   totaling approximately $1.7 million.

   We also reviewed additional convenience check transactions and questionable
   items that were processed in FY 2002 and discovered or brought to our attention.

   We reviewed applicable convenience check policies and regulations. We
   interviewed personnel from the DoD Joint Purchase Card Program office. We
   discussed the processes for purchasing supplies and services using convenience
   checks with agency program coordinators, approving officials, and convenience
   check account holders.

   We reviewed convenience check statements, carbon copies of checks, check
   transaction logs, and other source documents, such as purchase requests, invoices,
   and receiving reports. We performed this audit from May 2003 through
   December 2004 in accordance with generally accepted government auditing
   standards.




                                       15
    Use of Computer-Processed Data. To achieve the objective, we relied on
    computer-processed data provided to the Defense Manpower Data Center from
    U.S. Bank and Citibank. Although we did not perform a formal reliability
    assessment of the computer-processed data, we did compare check writers’
    monthly convenience check statements to the computer-processed data. We did
    not find errors that would preclude us from using the data to meet the audit
    objectives or that would change the conclusions in this report.

    Use of Technical Assistance. We received technical assistance from our Data
    Mining Division. The Data Mining Division obtained data from the Defense
    Manpower Data Center to include cardholder and transaction data from
    October 1, 2002, through May 29, 2003. The Data Mining Division then
    extracted the convenience check transactions and provided them to the audit staff.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office identified several high-risk areas in DoD. This report
    provides coverage to improve processes and controls to reduce contract risk.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    management controls program over the use of the DoD convenience checks under
    the purchase card program at the U. S. Army Tank-Automotive and Armaments
    Command, the Air Force Band, the Defense Commissary Agency, and the
    Uniformed Services University of Health Sciences. Specifically, we reviewed the
    FY 2002 and FY 2003 annual statements of assurance and the management
    control review checklists for the purchase card program. We also reviewed
    management’s self-evaluation applicable to those controls. We did not review the
    management control program at the U. S. Army Tank and Automotive Research,
    Development, and Engineering Center; the Army Great Lakes Recruiting
    Battalion; the 8th Marine Corps Recruiting District; the Marine Recruiting Center-
    Lansing; or the Marine Recruiting Center-San Antonio.

    Adequacy of Management Controls. Although we identified management
    control weaknesses at each site we visited, we did not consider them material as
    defined by DoD Instruction 5010.40. The management controls over the use of
    convenience checks needed improvement. Check writers split purchases into
    multiple transactions to avoid exceeding the threshold of $2,500; issued checks on
    a recurring basis instead of using alternative purchasing methods; issued checks
    to merchants that accepted charge cards; issued checks as a payment vehicle
    against a contract; and issued checks exceeding the threshold. In addition,
    controls were not in place to ensure that check writers reported IRS Form 1099-
    Miscellaneous Income data to DFAS. Recommendation A.1., if implemented,
    should correct the identified weaknesses.


                                        16
     Adequacy of Management’s Self-Evaluation. The U. S. Tank-Automotive and
     Armaments Command, the Air Force Band, the Defense Commissary Agency,
     and the Uniformed Services University of Health Sciences performed
     management self-evaluations. In their evaluations, managing officials did not
     identify the specific management control weaknesses identified by our review.


Prior Coverage
     Between FY 1996 and FY 2005, over 400 audit reports identified a wide range of
     implementation problems in the DoD purchase card program.

Government Accountability Office
     The Government Accountability Office (GAO) issued 13 reports and testimonies
     relating to the DoD purchase card program. The most recent are GAO Testimony
     No. GAO-04-717T, “Purchase Cards: Increased Management Oversight and
     Control Could Save Hundreds of Millions of Dollars,” April 28, 2004; GAO
     Report No. GAO-04-430, “Contract Management: Agencies Can Achieve
     Significant Savings on Purchase Card Buys,” March 12, 2004; and GAO Report
     No. GAO-04-156, “Purchase Cards: Steps Taken to Improve DoD Program
     Management, but Actions Needed to Address Misuse,” December 2, 2003. GAO
     reports can be accessed on the Internet at http://www.gao.gov/.

DoD Audit Organizations
     The DoD Inspector General and audit organizations in the Military Departments
     and the Defense agencies issued more than 400 audit reports on purchase cards
     between FYs 1996 and 2005. DoD IG Report No. D-2002-0029, “Summary of
     DoD Purchase Card Program Audit Coverage,” December 27, 2001, identified
     systemic issues with the program.

     DoD IG Report No. D-2002-075, “Controls Over the DoD Purchase Card
     Program,” March 29, 2002, identified specific risk factors that still existed in
     FY 2001 that required more proactive oversight. DoD IG Report
     No. D-2003-109, “Summary Report on the Joint Review of Selected DoD
     Purchase Card Transactions,” June 27, 2003, identified 182 cardholders through
     data mining who potentially used their cards inappropriately or fraudulently.

     DoD IG Report No. D-2004-002, “Selected Purchase Card Transactions at
     Washington Headquarters Services and Civilian Personnel Management Service,”
     October 16, 2003, and DoD IG Report No. D-2004-016, “Purchase Card Use at
     the Space and Naval Warfare Systems Command, Information Technology
     Center, New Orleans, Louisiana,” November 14, 2003, addressed controls over
     purchase card use that were not properly implemented or were ignored by senior
     managers.




                                         17
DoD IG reports can be accessed on the Internet at
http://dodig.osd.mil/audit/reports. The Military Departments and other Defense
organizations’ reports can be viewed from the DoD Web site at
http://www.defenselink.mil/.




                                   18
Appendix B. Scope of Review by Location

                                                                Dollar
                                                    Number of   Value of
                      Check                         Checks      Checks
Activity              Writer   Period of Review     Reviewed    Reviewed
U. S. Army
Tank-Automotive                October 2, 2002-
                          1                               19     $8,955
and Armaments                  February 19, 2003
Command
                               January 30, 2002-
                          2                               53     35,523
                               August 25, 2003
                               February 18, 2003-
                          3                               17      7,341
                               July 31, 2003
                               March 24, 2003-
                          4                               24     30,071
                               December 19, 2003
U. S. Army Tank
and Automotive                 October 1, 2002-
Research,                 1                              230    265,318
                               September 30, 2003
Development, and
Engineering Center
Army Great Lakes               October 25, 2002-
Recruiting                1                               79     19,545
                               August 18, 2003
Battalion
                               June 1, 2003-
                          2                               30     19,308
                               September 30, 2003
8th Marine Corps               August 27, 2002-
                          1                               18     37,587
Recruiting District            May 20, 2003
Marine Recruiting              October 18, 2002-
                          1                               69     39,403
Center-Lansing                 July 28, 2003
Marine Recruiting              October 3, 2002-
                          1                               32     15,136
Center-San Antonio             June 4, 2003
                               October 1, 2002-
Air Force Band            1                              120    114,722
                               September 30, 2003
                               October 1, 2002-
                          2                              190    152,747
                               September 30, 2003




                                     19
                                                                  Dollar
                                                    Number
                     Check                                      Value of
Activity                      Period of Review     of Checks
                     Writer                                      Checks
                                                   Reviewed    Reviewed
Defense                       October 1, 2002-
Commissary             1                                135      131,487
                              September 30, 2003
Agency
                              October 1, 2002-
                       2                                 50       24,030
                              July 31, 2003
                              October 1, 2002-
                       3                                  2        1,153
                              November 5, 2003
                              October 1, 2002-
                       4                                  2        3,608
                              September 30, 2003
                              October 23, 2002-
                       5                                 17       12,426
                              July 2, 2003
                              November 27, 2002-
                       6                                  6        4,895
                              June 13, 2003
                              March 13, 2003-
                       7                                  3        3,203
                              July 25, 2003
                              May 15, 2003-
                       8                                 48       20,087
                              September 26, 2003
Uniformed Services            September 2002-
University of          1                               1,596     380,058
                              May 2003
Health Sciences
                              October 1, 2002-
                       2                                457      241,744
                              August 5, 2003
                              October 1, 2002-
                       3                                325      157,737
                              September 11, 2003

Total                 23                               3,522   $1,726,083




                                    20
Appendix C. List of Activities Visited and
            Problems Found
                                                                                  Not
                                                          Checks      Checks      Reporting
                                                          Issued As   Issued to   IRS Form
                    Checks   Checks Split   Checks        Payment     Merchants   1099-
                    Issued   to Avoid       Issued on a   Vehicles    Accepting   Miscellaneous
                    Over     Exceeding      Recurring     Against     Purchase    Income
Activity            $2,500   $2,500 Limit   Basis         Contracts   Card        Information
U.S. Army
Tank-Automotive
and Armaments
                      X                         X
Command
U. S. Army Tank
and Automotive
Research,
Development, and
                                                X                                      X
Engineering
Center
Army Great
Lakes Recruiting                                                          X            X
Battalion
8th Marine Corps
Recruiting            X           X                                       X            X
District

Marine Recruiting
Center-Lansing
                                  X             X                         X            X

Marine Recruiting
Center–San                                                                X            X
Antonio

Air Force Band                    X             X                         X            X
Defense
Commissary            X           X             X              X
Agency
Uniformed
Services
University of
                                  X             X                         X            X
Health Sciences




                                              21
Appendix D. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Defense Procurement and Acquisition Policy
   Director, Joint Purchase Card Program Management Office
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Commissary Agency
President, Uniformed Services, University of Health Sciences

Non-Defense Federal Organization
Office of Management and Budget




                                          22
Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        23
Under Secretary of Defense for Acquisition,
Logistics, and Technology Comments




                       25
26
27
Uniformed Services University of the Health
Sciences Comments
                                                                              Final Report
                                                                              Reference




                                                                              *
                                                                              Revised
                                                                              Page 6
                                                                              Revised
                                                                              Page 9
                                                                              Revised
                                                                              Page 7




* Omitted because attached documentation contained Privacy Act information.

                                                 29
Defense Commissary Agency Comments




                    31
32
33
34
35
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Contract Management, prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed
below.

Richard B. Jolliffe
Deborah L. Carros
Beth K. Schaefer
Timothy M. Wimette
Karen L. Jones-Moradian
Wei K. Wu
Pamela S. Varner
Brett N. Ward
Amie M. Coffren
Deanne B. Curry
Judy M. Chun
Kendall L. Alexis
Meredith H. Johnson
